                                            UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


AUD-MERO-14-18                                   Office of Audits                                         June 2014




   Audit of Personal Property Accountability

              at U.S. Mission Iraq





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED

                                        UNCLASSIFIED




                                                                ni ted Stale Depa rt ment of Sta le
                                                              and the Broadcasting Board of Govern or

                                                              Office of Insp ector General




                                            PREFACE

       This report was prepared by the Office ofinspector General (OIG) pursuant to the
inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of aud it, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Norman P. Brown
                                              Assistant Inspector General
                                               for Audits




                                        UNCLASSIFIED

                               UNCLASSIFIED




Acronyms
A/LM	          Bureau of Administration, Office of Logistics Management
A/LM/PMP	      Bureau of Administration, Office of Logistics Management, Office of
               Program Management and Policy
APO	           Accountable Property Officer
CAP	           contractor-acquired property
CMMS	          Computerized Maintenance Management System
COM	           Chief of Mission
DoD	           Department of Defense
DS	            Bureau of Diplomatic Security
DS/PSP/DEAV	   Bureau of Diplomatic Security, Office of Physical Security Programs,
               Defensive Equipment and Armored Vehicles Division
FAH	           Foreign Affairs Handbook
FAM	           Foreign Affairs Manual
GFE	           Government-furnished equipment
GSO	           General Services Officer
ILMS	          Integrated Logistics Management System
NEA	           Bureau of Near Eastern Affairs
OIG	           Office of Inspector General
PBUSE	         Property Book Unit Supply Enhanced
PMO	           Property Management Officer
RSO	           Regional Security Office
S-ILMS	        Secure Integrated Logistics Management System




                               UNCLASSIFIED

                                                          UNCLASSIFIED



                                                        Table of Contents

Section                                                                                                                                  Page


Executive Summary .........................................................................................................................1 


Background….. ................................................................................................................................3 


Objective…….. ................................................................................................................................6 


Audit Results ..................................................................................................................................6 

       Poor Management Processes Resulted in Inaccurate and Incomplete Property Records
       for U.S. Mission Iraq ...........................................................................................................6 


List of Recommendations ....................................................................................................... ......22 


Appendices

           A.   Scope and Methodology ..............................................................................................23 

           B.   Bureau of Administration, Office of Logistics Management Response ......................30 

           C.   Bureau of Diplomatic Security Response ....................................................................31 

           D.   Bureau of International Narcotics and Law Enforcement Affairs Response ...............33 


Major Contributors to This Report ................................................................................................35 





                                                          UNCLASSIFIED

                                                UNCLASSIFIED


                                            Executive Summary
         In December 2011, the United States transitioned from a predominantly military-led
mission to a civilian-led mission in Iraq, with the Department of State (Department) assuming
full responsibility for leading U.S. operations in Iraq from the Department of Defense (DoD).
One logistical challenge for U.S. Mission Iraq in completing the transition included identifying,
inventorying, and disposing of the vast quantities of DoD and DoD-contractor property left
behind, while simultaneously managing approximately $287 million of personal property under
the Mission’s custody. In July 2012, Office of Inspector General (OIG) senior managers
conducted consultations with U.S. Embassy Baghdad managers who reported concerns regarding
property accountability for U.S. Mission Iraq as a result of the military drawdown that took place
in late 2011. OIG conducted this audit to determine the extent to which the Department and U.S.
Mission Iraq’s policy, procedures, controls, and personnel were in place and operating as
intended to ensure property was recorded, monitored, and disposed of properly.

        The Department did not have accurate property records for its personal property located
throughout Iraq because the Department and U.S. Mission Iraq lacked processes to ensure that
property records were consistently and accurately updated in a timely manner. OIG could not
verify the existence of 142 of 2,023 (7.0 percent) of sampled Iraq-specific personal property
items, valued at approximately $2.7 million, that were maintained in Department and
Department of the Army property databases, including three sensitive special protective
equipment items reported by post as “lost, damaged, or destroyed;” 5 generators; 2 motor
vehicles; 92 pieces of information technology equipment; and 9 pieces of property on loan from
the U.S. Army. 1 In addition, OIG could not trace 124 of 969 (12.8 percent) selected property
items that should have been recorded in the Department’s property databases. Inaccurate and
incomplete records prevented us from projecting the results of these tests beyond the selected
samples and making general statements about all Department property in Iraq.

        Property records for Iraq were inaccurate and incomplete for several reasons, including
the fact that the Department and U.S. Mission Iraq lacked effective processes for ensuring
inventories were updated and items were tracked. We found that a Mission-wide Accountable
Property Officer (APO) located in Baghdad relied on General Services Officers (GSOs) at other
Iraq locations that were not within the direct chain of command of the APO and did not have
access to Department property databases to provide property updates. We also found that the
Bureau of Diplomatic Security (DS), Office of Physical Security Programs, Defensive
Equipment and Armored Vehicles Division (DS/PSP/DEAV), updated its master database of
sensitive special protective equipment annually, rather than on a real-time basis. Moreover, the
General Services Office in Baghdad did not establish a system for monitoring the use of property
loaned by the Department of the Army; and the Regional Security Office (RSO), which used the
equipment, did not always report to the GSO when items were assigned or relocated.
Furthermore, the Mission did not have procedures and did not properly plan for accepting
property transferred by DoD during the transition to civilian-led operations. Finally, during

1
    Records for property on loan to U.S. Mission Iraq from the U.S. Army are maintained by the U.S. Army.

                                                          1

                                                UNCLASSIFIED
                                            UNCLASSIFIED


2009–2012, the Mission had not properly reconciled on-hand property and property databases
during required annual inventories, which compounded undetected errors over multiple years.
As a result, the Department and U.S. Mission Iraq cannot be assured of the integrity of property
inventories or the disposition of property, and the potential exists for property to be lost, stolen,
or misused.

        During the course of the audit, the Department and U.S. Mission Iraq took actions to
account for excess Government property located in containers on Chief of Mission (COM) sites
in Baghdad, Basrah, and Erbil, much of which was abandoned by the U.S. military when it
withdrew forces from Iraq in 2011. The actions included identifying, assessing, inventorying,
and disposing of unserviceable and serviceable property. Additionally, Department officials
stated they were developing lessons learned related to the accountability of excess property in
Iraq for Afghanistan, where the U.S. military is currently planning its exit strategy. However,
OIG found that several of U.S. Mission Iraq’s requests to abandon or transfer foreign excess
personal property that were approved by the Bureau of Administration, Office of Logistics
Management, Office of Program Management and Policy (A/LM/PMP), did not contain required
estimated transportation cost analyses. As a result, OIG could not validate that the approved
property transfers were in the best interest of the U.S. Government.

         OIG is recommending that Embassy Baghdad implement revised procedures for property
accountability to ensure staff consistently and accurately update personal property records on a
timely basis; establish a tracking system to record and monitor the physical location and
condition of loaned personal property; and investigate and report to DS the location and status of
the three sensitive special protective equipment items reported as “lost, damaged, or destroyed”
as well as any corrective actions taken. OIG is recommending that DS revise Secure Integrated
Logistics Management System (S-ILMS) accountability procedures to record and report, in real
time, changes in physical locations of sensitive special protective equipment. OIG is also
recommending that the Bureau of Administration, Office of Logistics Management (A/LM),
develop monitoring guidance to ensure that approved foreign excess personal property
dispositions include all documentation, as required by volume 14 of the Foreign Affairs Manual
(FAM) and the Department’s Site Closure and Foreign Excess Personal Property Disposition
Guide for Iraq and Afghanistan, and that the guidance address procedures for documenting
justifications for any deviations from the requirements.

        OIG did not receive Embassy Baghdad’s response to the draft report within the comment
        2
period; therefore, a response has not been included in this report. A/LM concurred with the one
recommendation addressed to it in the draft report (see A/LM’s May 8, 2014, response in
Appendix B). DS concurred with the one recommendation addressed to it in the draft report (see
DS’s May 9, 2014, response in Appendix C). OIG also received a response from the Bureau of
International Narcotics and Law Enforcement Affairs, which is included in its entirety at
Appendix D.
2
 OIG received Embassy Baghdad’s response to the draft report while OIG was finalizing the report. Embassy
Baghdad concurred with two recommendations, but disagreed with the third. OIG will follow up with Embassy
Baghdad during the compliance process to ensure implementation of the recommendations.

                                                      2

                                            UNCLASSIFIED
                                               UNCLASSIFIED



       Based on the responses received, OIG considers two of the five recommendations
resolved, pending further action, and three recommendations unresolved, pending further action.
Management’s responses and OIG’s replies to those responses are included after each
recommendation.

                                                 Background
        The FAM and the Foreign Affairs Handbook (FAH) require the Department to maintain
accountable property records for all personal property abroad. 3 Personal property includes the
following, regardless of cost: motor vehicles; aircraft; heritage assets; leased property; firearms,
aiming, and night vision optics; sensitive items, such as ammunition, explosives, information
technology equipment with memory capability, cameras, and communication equipment;
classified or unclassified central processing units, monitors, and laptop computers; and two-way
mobile radio systems. 4 Other items that must be tracked on property records include capitalized
property, 5 serialized property with an acquisition cost of $500 or more, and nonexpendable
personal property with an acquisition cost of $5,000 or more. 6

         OIG identified inadequate controls over property accountability in audit and inspection
reports and independent auditors’ reports dating back to 2005 for both the Department and U.S.
Mission Iraq. In November 2012, 7 the independent auditor reported that the Department’s
internal control structure exhibited several deficiencies that negatively affected the Department’s
ability to account for real and personal property in a complete, accurate, and timely manner.
Specific deficiencies cited by the independent auditor included lack of controls to ensure that real
and personal property acquisitions and disposals were recorded timely and accurately;
incomplete contractor-held property and Government-furnished equipment records; and
inaccurate and incomplete personal property records for DoD-transferred assets in Iraq. In
addition, the independent auditor noted that weaknesses in property had initially been reported in
the audit of the Department’s FY 2005 financial statements and subsequent audits.

        In July 2009, OIG reported that Embassy Baghdad did not have adequate control of
Government personal property, that it possessed a large amount of property that had been
received but not entered into inventory, and that the property management unit had not
established or documented standard operating procedures for managing personal property. 8 In
April 2010, OIG reported that Embassy Baghdad had difficulty controlling and accurately

3
  14 FAM 411.1, “Scope”; 14 FAM 414.1-1, “Accountability Criteria”; 14 FAH-1 H-411, “Accountability

Requirements at Post”; and 14 FAH-1 H-412, “Accountability Criteria.”

4
  14 FAM 411.4, “Definitions.”

5
  14 FAM 411.4 states that capitalized property “has an acquisition cost of $25,000 or more and estimated service

life of 2 years or more and must be reported in the agency’s financial statements.”

6
  14 FAM 411.4.

7
  OIG, AUD-FM-13-08, Independent Auditor’s Report on the U.S. Department of State 2012 and 2011 Financial

Statements, November 2012.

8
  OIG, ISP-I-09-30A, Report of Inspection, Embassy Baghdad, Iraq, July 2009.


                                                         3

                                               UNCLASSIFIED
                                                UNCLASSIFIED


accounting for millions of dollars’ worth of vehicles, nonexpendable items such as household
furnishings and office equipment, and expendable supplies, including medical equipment and
pharmaceuticals. 9 In May 2013, OIG reported that general services sections in Baghdad, Basrah,
and Erbil were inventorying Department property and reconciling missing items, but that
inaccurate and incomplete records of DoD-transferred property complicated accountability, and
that consulates general in Basrah and Erbil did not have complete access to the Integrated
Logistics Management System (ILMS) as required by 14 FAM 414.2-1. 10 All recommendations
related to accountability and management control of personal property made in these prior
reports have been either closed or resolved.

        In December 2011, the United States transitioned from a predominantly military-led
mission to a civilian-led mission in Iraq, with the Department assuming full responsibility for
leading U.S. operations in Iraq. That transition was an unprecedented undertaking, highly
complex in nature and scope, with extensive requirements for staff, budgets, and organization.
One logistical challenge for U.S. Mission Iraq in completing the transition included identifying,
inventorying, and disposing of the vast quantities of excess DoD and DoD-contractor property
that transferred to the mission, 11 while simultaneously managing approximately $287 million of
personal property under the mission’s custody. 12

Property Management Record Systems

        The FAM requires that all nonexpendable property be recorded and maintained within the
Asset Management application of ILMS. 13 ILMS is a Web-based information system used for
managing the Department’s logistical operations, including procurement, warehousing,
transportation, and diplomatic pouch functions. The Asset Management application within
ILMS is designed to track procurement, receipt, and disposal of the Department’s domestic and
overseas personal property. The application tracks specific information for personal property
items, including the following:
        •	 a unique identifier, such as an asset identification number, serial number, or vehicle
            identification number
        •	 the type and description of the asset
        •	 the cost, which includes purchase, transportation, and installation
        •	 the date the asset was received at post


9
  OIG, MERO-A-10-07, Audit of Property Accountability at Embassy Baghdad, April 2010.

10
   Inspection of Embassy Baghdad and Constituent Posts, Iraq (ISP-I-13-25A, May 2013).

11
   In May 2011, DoD authorized the transfer equipment to the Department in support of the U.S. Mission in Iraq via

loan or permanent transfers.

12
   According to 40 U.S. Code Section 702 and 704, as determined by the heads of executive agencies, foreign excess

personal property may be: returned to the U.S. if in the interest of the U.S.; disposed of by sale, exchange, lease, or

transfer for cash, credit, or other property; exchanged for foreign currency or credit; abandoned, destroyed, or

donated if the property has no commercial value or if estimated care and handling costs exceed estimated sale 

proceeds.

13
   14 FAM 414.2-1, “Approved Property Record Systems.”


                                                           4

                                                UNCLASSIFIED
                                           UNCLASSIFIED



           •	 asset status, indicating whether the asset has been received, is in service, has been
              disposed of, or was transferred elsewhere
           •	 the business unit responsible for managing and using the asset
           •	 the location of the asset

        Records for Department-owned sensitive property, such as firearms, optics, and aiming
devices, are maintained by DS/PSP/DEAV in S-ILMS. DS also maintains the Computerized
Maintenance Management System (CMMS)—used to track unclassified capitalized and
noncapitalized security equipment, such as radios, x-ray machines, and countermeasure
equipment installed in vehicles—as well as the classified-CMMS, which tracks all classified
security equipment. All records for capitalized security equipment in unclassified and classified
versions of CMMS are also stored in ILMS and S-ILMS; however, noncapitalized security
equipment is not recorded in ILMS.

        The Bureau of Administration, Office of Logistics Management, Office of Acquisitions
Management, maintains records for contractor-acquired property (CAP), or property that
contractors purchased with contract funds, and Government-furnished equipment (GFE), or
Department-owned property provided to contractors in support of a contract. On a quarterly
basis, the Office of Acquisitions Management receives CAP and GFE records from contractors,
reviews them for completeness and accuracy, and submits the validated data to the Bureau of the
Comptroller and Global Financial Services for financial-statement reporting purposes. However,
CAP records are not included in ILMS because they represent contractor-purchased rather than
Department-purchased property.

        Finally, records for property that the Department of the Army loaned to U.S. Mission Iraq
are maintained by the Department of the Army in its Property Book Unit Supply Enhanced
(PBUSE) system. This property is not owned by the Department of State and does not appear on
its accountable property records. An October 5, 2011, Memorandum of Agreement between the
Department of the Army and the Department of State relating to the loan of Army equipment in
support of the Department of State’s Mission in Iraq delineates responsibility for personal
property accountability. Although the Department of State is required to have an accountability
system for all loaned equipment, the accountability and responsibility for property record
keeping for the loaned equipment remained with the Department of the Army.

Property Management Responsibilities

        A/LM/PMP oversees the Department’s personal property management program
worldwide. Accordingly, it is responsible for establishing policy for the management and
control of property, reviewing property management regulations and procedures, and providing
guidance in areas such as property accountability, inventory management, property utilization,
and disposal. 14 Overall responsibility for personal property at overseas posts resides with the

14
     14 FAM 411.2, “Responsibilities.”

                                                    5

                                           UNCLASSIFIED
                                                UNCLASSIFIED


Property Management Officer (PMO), usually the highest-ranking Management Officer. The
PMO is responsible for all property management functions but is authorized to delegate
responsibilities for ordering, receiving, assigning, and disposing property, and conducting the
annual inventories, among other activities. 15 A post’s APO, usually a GSO, is responsible for
the custody, care, and safekeeping of all property under control of the post; 16 maintenance of all
required property records; the accomplishment and reconciliation of the physical inventory and
the completion of required certification reports; preparation of reports documenting inventory
shortages and overages; and supervision and training of personnel who are assigned these
duties. 17 The post’s Property Disposal Officer (PDO) is responsible for selecting the method of
disposal of personal property and the preparation and distribution of disposal documents. 18

                                                    Objective
       The audit objective was to determine the extent to which the Department and U.S.
Mission Iraq’s policies, procedures, controls, and personnel are in place and are operating as
intended to ensure that property is recorded, monitored, and disposed of properly.

                                                 Audit Results

Poor Management Processes Resulted in Inaccurate and Incomplete Property
Records for U.S. Mission Iraq
         The Department did not have accurate property records for its personal property located
throughout Iraq. OIG could not verify the existence 19 of 142 of 2,023 (7.0 percent) of sampled
property that had a total value of approximately $2.7 million. In addition, based on completeness
testing, 20 we could not trace 124 of 969 (12.8 percent) selected property items to the
Department’s property records. Inaccurate and incomplete records prevented us from projecting
the results of these tests beyond the selected samples to formulate general statements about all
Department property in Iraq. Property records for Iraq were inaccurate and incomplete for
several reasons, including the fact that the Department and U.S. Mission Iraq lacked processes to
manage property adequately. By not complying with property accountability requirements, the
Department and U.S. Mission Iraq cannot be assured of the disposition of the property, and the
potential exists for this property to be lost, stolen, or misused. During the course of this audit,
U.S. Mission Iraq and the Department took actions to:


15
   14 FAM 411.2-1, “Property Management Officer (PMO).”

16
   14 FAH-1 H-412, “Accountability Criteria,” states that, generally, DS centrally accounts for security-related

personal property that is program-funded and that the post accounts for property funded by the post.

17
   14 FAM 411.2-2, “Accountable Property Officer (APO).”

18
   14 FAM 411.2-3, “Property Disposal Officer (PDO).”

19
   Existence testing is conducted by tracing an item from the property records to its physical location to confirm the

item exists.

20
   Completeness testing is conducted by selecting an item from its physical location and tracing it to an inventory

system to verify the property records are complete and include the selected item.


                                                           6

                                                UNCLASSIFIED
                                              UNCLASSIFIED



        •	 reconcile Department property records, some of which had not been reconciled since
           2009
        •	 account for the property in 2,637 containers and for 2,441 surplus vehicles found on
           COM sites in Baghdad, Basrah, and Erbil
        •	 dispose of unserviceable property from the containers
        •	 use, transfer, auction, or otherwise dispose of serviceable property
The Mission plans to complete these efforts and establish a new inventory baseline by the end of
summer 2014.

OIG Could Not Verify Existence of All Sampled Personal Property

        To determine whether U.S. Mission Iraq could account for the assets in ILMS, CMMS,
S-ILMS, CAP, GFE, and PBUSE, we selected a sample of items from each system to verify their
existence through direct observation or supporting documentation. 21 This procedure is
commonly referred to as existence or list-to-floor testing. We selected 2,023 of the 105,238
items reported in the six databases. See Appendix A for a full description discussion of the
sampling and existence-testing methodology.

        In all, we verified the existence of 1,881 of 2,023 sample items (93.0 percent), which
were valued at $284.7 million. 22 We could not verify the existence of 142 (7.0 percent) sample
items valued at $2.7 million. Of the 2,023 sample items, 944 (47.0 percent) were selected from
the ILMS database. We could not verify the existence of 116 (12.3 percent) of the 944 ILMS
items, which had a combined value of approximately $2.1 million. The ILMS items we could
not verify included the following:
        •	 4 generators
        •	 2 motor vehicles
        •	 92 pieces of information technology equipment, including 16 computers (one of
           which was used to process classified information), 2 laptops, 23 44 monitors,
           12 uninterruptable power supplies, 12 printers, and 6 other computer-related items
        •	 21 other types of property, such as a television, a transfer switch, a forklift, and
           13 “miscellaneous” items worth approximately $641,000 that transferred from DoD
           to the Department during the final drawdown of U.S. forces
    We also could not verify the existence of 11 security-related or sensitive items from the
CMMS and S-ILMS databases, including 3 radios, 5 electronic countermeasures components,

21
   OIG used stratified random sampling for selecting items to verify. See Appendix A for a description of this

sampling technique.

22
   Dollar amount does not include value of S-ILMS items, which were not provided to OIG.

23
   OIG did not observe the 16 computers and 2 laptops and could not determine whether the devices were in use or

what, if any, data was processed or maintained on them.


                                                        7

                                              UNCLASSIFIED
                                              UNCLASSIFIED


and 3 pieces of sensitive special protective equipment. According to Embassy Baghdad RSO
officials, the three sensitive special protective equipment items were reported to DS/PSP/DEAV
as lost, damaged, or destroyed. Specifically, Embassy Baghdad RSO officials indicated that two
had been reported in 2007, but the officials did not know when the third item had been reported.
However, neither Embassy Baghdad RSO officials nor DS/PSP/DEAV officials could provide
OIG with documentation to support that the three items had actually been reported as lost,
damaged, or destroyed. 24

       In addition, we could not verify the existence of five contractor-acquired property
items—one generator, two transformers, and two vehicles—and one trailer recorded in the GFE
database. Finally, we could not verify the existence of five biometric collection units and four
generators that the Department of the Army loaned to the Department of State. Table 1 displays
the number and value of the assets, by property system and asset type, that were not verified by
OIG during existence testing.




24
 OIG provided specific identifying information for the sample of sensitive special protective equipment items to
Embassy Baghdad RSO officials in April 2013 and to DS/PSP/DEAV in August 2013.

                                                        8

                                              UNCLASSIFIED
                                              UNCLASSIFIED


 Table 1. Number and Value of Assets, by Property System and Type, Not
 Verified During Existence Testing
                                                          Assets        Assets     Percentage           Value of
                                           Total     Selected for          Not       of Assets        Assets Not
 Property System and Type                 Assets     Verification      Verified    Not Verified          Verified
ILMS
            Aircraft and Related
                           Assets               49               49            1           2.0%          $199,470
                  Motor Vehicles             1,863              239            2           0.8%          $214,593
                      Information
          Technology Equipment             11,562               273           92          33.7%              $71,219
              All Other Personal
                         Property          77,774               383          21            5.5%        $1,604,380
                         Subtotal          91,248               944         116           12.3%        $2,089,662
S-ILMS
                Sensitive Special
            Protective Equipment           12,049               275            3           1.1%                 n/a*
            Sensitive Non-special
            Protective Equipment                 4                 4           –                –                 –
CMMS**                                         728              350            8           2.3%          $305,964
CAP                                            160               97            5           5.2%          $179,877
GFE                                            742              206            1           0.5%              $41,091
                          Subtotal        104,931             1,876         133            7.1%        $2,616,594
PBUSE                                         307               147           9            6.1%           $78,691
 Total                                    105,238             2,023         142            7.0%        $2,695,285

 Source: Data obtained from the Department and OIG testing.

 * Values of Sensitive Special Protective Equipment assets were not included in the data provided to OIG.

 ** Capitalized security equipment items reported in ILMS.



Property Databases Did Not Contain Records for All Personal Property In Iraq

        To determine whether the Department’s property databases contained records for all
pieces of property in Iraq, we judgmentally selected items similar to and located near the items
selected for existence testing to trace to the property databases. This procedure is commonly
referred to as completeness or “floor-to-list” testing. We found that the data systems did not
contain records for 124 of 969 items (12.8 percent) selected for testing. Table 2 shows the
number of items OIG could not trace to property records by location. 25 OIG could not trace the
following items to property records:



25
  Since items could not be traced to property records, OIG could not readily determine the values of sampled items
because acquisition costs, make and model, and year of purchase, were unknown.

                                                         9

                                              UNCLASSIFIED
                                           UNCLASSIFIED



       •	 14 aircraft-related items, including test kits, belt loaders, tow trucks, communication
          equipment, and tools
       •	 36 sensitive special equipment items
       •	 27 information-technology-related items, 10 of which were classified disk drives
       •	 6 security equipment items, including an x-ray mobile system and electronic

          countermeasure components

       •	 24 other personal property items, including 3 fuel tanks, 11 motor vehicles, and 3
          generators
       •	 17 items loaned by the Army, including biometric readers and computer equipment

     Table 2. Number of Assets, by Location, Not Traced to a Property System
     During Completeness Testing
                                                             Untraced to        Percentage of
    Asset Location                        Sample Size   Property Records       Untraced Items
    Baghdad Embassy Compound                     574                  62                10.8%

    Baghdad Diplomatic Support

    Center                                       125                  17                13.6%

    Erbil Diplomatic Support Center               64                   6                 9.4%
    Consulate General Erbil                       79                  11                13.9%
    Consulate General Basrah                     127                  28                22.0%
    Total	                                       969                 124                12.8%

    Source: Generated from OIG testing.


Inaccurate and Incomplete Records Prohibit Projecting Results of Statistical Sample

        OIG could not project the results of its existing testing to the universe of Iraq property
because the inventory systems from which we selected samples contained inaccurate information
or were incomplete. From February through July 2013, we received data on six separate
occasions from which to select our samples for existence testing and to trace property for
completeness testing. We determined the ILMS property lists A/LM/PMP provided in
February 2013 and early March 2013 were insufficient for use because the records lacked unique
identifying information, such as serial numbers and vehicle identification numbers, and
important descriptive information, such as the location and value of items. On March 22, 2013,
A/LM/PMP provided an updated ILMS property list that we determined was adequate for use in
our existence and completeness testing. However, subsequent to selecting samples and
beginning our fieldwork, we received additional Iraq property lists that indicated the information
provided on March 22 did not include all security-equipment property records for Iraq, as
purported. DS/PSP/DEAV provided lists in April and May 2013 with these records. On
July 10, 2013, after fieldwork was substantially completed, the Bureau of International Narcotics
and Law Enforcement Affairs provided a contractor-property report that included CAP and GFE


                                                  10

                                           UNCLASSIFIED
                                            UNCLASSIFIED


for aircraft and related assets used for passenger air transportation under the Embassy Air-Iraq
program. 26 This property information was not included in the CAP and GFE listing provided by
A/LM/PMP in February 2013. Due to the late receipt, OIG did not include the contractor’s
property data for 135 Iraq-specific aircraft and related assets, valued at approximately
$195 million in our existence testing but used the data for completeness testing. The
Department’s iterative approach for providing the property lists hampered OIG efforts to
efficiently and effectively conduct sampling and testing. Moreover, the incompleteness of the
inventory records precluded OIG from projecting the results of its existence testing to the
universe of Iraq property. For a complete discussion of our sampling methodology, see
Appendix A.

Department of Defense Transferred Property Records Not Incorporated Into Property
Databases

        In November 2011, the Mission issued a policy for receiving excess DoD and
DoD-contractor personal property, 27 stating that “DoD personal property should not be accepted
or retained without a direct operational need, and a maintenance repair plan for each piece of
equipment or nonexpendable property” and that sites under COM authority should refrain from
stockpiling equipment that would require disposal actions because of lack of use. In addition,
COM worksites in the Baghdad area were required to report and track in ILMS all property that
met the FAM’s definition of personal property, including capitalized property. However, COM
worksites outside Baghdad were required to track and report in ILMS only DoD-transferred
property that met the capitalized threshold.

        According to U.S. Mission Iraq property documentation, during the departure of U.S.
military forces from Iraq in late 2011, DoD transferred to U.S. Mission Iraq approximately
200,000 personal property items valued at $299 million—498 items of which were capitalized
property valued at $43.5 million (14.5 percent of the total value of transferred items). 28
However, physical verification of this transferred property has been problematic. In its FY 2013
annual physical inventory, U.S. Mission Iraq reported a $12.4 million nonexpendable inventory
shortage in ILMS (4.3 percent of the total nonexpendable inventory value), of which $10.3 million
was attributed to items DoD transferred to the Department. In addition, an unquantified amount
of DoD-transferred and abandoned property that was not entered into Department or Embassy
inventory systems remains on U.S. Mission Iraq sites awaiting identification and disposal.

Department and U.S. Mission Iraq Lacked Procedures and Systems To Manage Inventory
Adequately

        Iraq property records were inaccurate and incomplete for several reasons, including the
fact that the Department and U.S. Mission Iraq did not have procedures or a system to ensure

26
   Embassy Air-Iraq provides international and domestic travel services under Contract S-AQMPD-05-C-1103.
27
   Embassy Baghdad Mission Policy 011-036, “DOD to DOS Property Transfer and Loans,” November 9, 2011.
28
   These figures derive from an Embassy Baghdad-developed property tracking system used to track DoD­
transferred equipment.

                                                     11

                                            UNCLASSIFIED
                                              UNCLASSIFIED


that property records were consistently and accurately updated in a timely manner. Until
July 2013, the Mission designated a single APO, an Assistant GSO located in Baghdad, to
manage all property and make all property decisions countrywide. 29 The APO tasked GSOs
located at other COM facilities in Iraq to support COM property management, including
conducting the annual physical inventory. However, GSOs at sites outside Baghdad reported to
management officers at their specific sites, not to the GSO or APO in Baghdad, and they were
responsible for local priorities. For example, the GSOs at Consulate General Basrah and the
Baghdad Diplomatic Support Center stated that they had additional duties as contracting officer’s
representatives for life-support contracts awarded to sustain the worksite and support post
employees, which took considerable time and effort to manage. Additionally, the GSO at Erbil
Diplomatic Support Center was heavily involved with preparing the site for closure by
July 2013.

       Moreover, the APO in Baghdad retained overall ownership of U.S. Mission Iraq personal
property recorded in the ILMS property database. According to the APO, prior to October 2012,
GSOs outside Baghdad could not access the ILMS property database to reconcile differences
between the records and “on-hand” property or update the property records as property was used,
moved, or disposed. Instead, they relied on General Services Office staff at Embassy Baghdad to
make these updates. As a result, GSOs outside Baghdad had little incentive, time, or capability
to manage property effectively.

         We also found that infrequent updates of the S-ILMS database led to inaccurate records
for sensitive special protective equipment. As noted, the S-ILMS main database was managed
by DS/PSP/DEAV in Washington. However, day-to-day management of sensitive special
protective equipment was handled at the post level by the RSO. The RSO in Baghdad updated
its post-level records as it assigned, relocated, or disposed of sensitive special protective
equipment. However, DS/PSP/DEAV did not update S-ILMS property records in real time to
reflect the movement of property as recorded by the RSO in the post-level records. Instead,
DS/PSP/DEAV updated the S-ILMS database using the post-level records once per year as part
of the annual DS inventory process. As a result, S-ILMS data records for sensitive special
protective equipment frequently contained inaccurate location information. For example,
although we verified the existence of about 99 percent of sensitive special protective equipment
sampled from S-ILMS, we initially could not verify the existence of 50 of 235 (21 percent)
sampled items the database reported as located in Baghdad, or 1 of 17 (6 percent) sampled items
reportedly located in Basrah. Only after multiple efforts coordinated with RSOs in multiple
locations countrywide did OIG verify that the Baghdad items had been relocated to either Basrah
or Erbil, and the Basrah item had been relocated to Baghdad. Additionally, we traced two
sampled items to documentation provided by Embassy Baghdad RSO staff, which indicated that
one of the items had been reported as lost, damaged, or destroyed in 2007 and another item had
been returned to DS/PSP/DEAV in 2011. DS/PSP/DEAV officials did not explain why the two
items remained on the S-ILMS records in 2013.

29
   In July 2013, the Department began requiring Consulate General Erbil to conduct independent annual inventories
in accordance with the FAM.

                                                       12

                                              UNCLASSIFIED
                                              UNCLASSIFIED



        In addition, we found that U.S. Mission Iraq’s General Services Office did not have
procedures or a system of accounting in place to record all U.S. Government personal property
loaned by the Department of the Army in a consistent or timely manner, leading to inaccurate
property records. Per the terms of the agreement with the Department of the Army, the
Department of State was required to have or establish an accountability system to track loaned
property quantities and locations, and the accountability officer was to maintain an audit trail for
all loan transactions. However, the General Services Office relied on PBUSE, the property
accounting system belonging to the Department of the Army, rather than developing or
maintaining its own property records. Without its own accountability system to track loaned
property, the General Services Office could not confirm whether loaned property was located in
Iraq, and whether property had been returned to the Army or manufacturer for repairs.

        Poor communication between the General Services Office and the RSO also contributed
to inaccurate records for Army-loaned property. The loaned property was primarily used by the
RSO to secure diplomatic compounds; however, accountability for these items resided with the
General Services Office, which had little control over where the items were located or how they
were used. According to the FAH 30 and the Memorandum of Agreement with the Army, the
Department was to update tracking system records when property locations changed. The
General Services Office relied on the RSO to provide notification of property relocations;
however, General Services Office officials stated that such notifications from the RSO rarely
occurred, leading to inaccurate data records for Army-loaned property.

        Moreover, U.S. Mission Iraq and the Department did not adequately plan for DoD
property transfers. The U.S. and Iraq governments agreed in 2009 to the withdrawal of U.S.
forces from Iraq no later than December 31, 2011. 31 However, U.S. Mission Iraq did not issue
standard operating procedures for accepting, managing, and accounting for DoD excess personal
property until November 9, 2011, less than 2 months before the last U.S. forces were scheduled
to leave the country. Two months proved insufficient time to put in place the procedures to
accept, manage, and account for the transfer of approximately 200,000 personal property items.

         Finally, the databases used for managing Iraq property were inaccurate and incomplete,
in part, because Embassy Baghdad did not annually reconcile its data with on-hand property.
The FAM and FAH 32 require annual physical inventories to verify the condition, location, and
quantity of property and the immediate reconciliation of annual inventory results to property


30
   14 FAH-1 H-413.2-2, “Relocation, Redistribution, and Transfer Documents,” requires the use of transfer 

documents to record the relocation of personal property as a result of office moves and that the information be

entered in the property records to reflect the new property locations.

31
   “Agreement Between the United States of America and the Republic of Iraq on the Withdrawal of United States

Forces from Iraq and the Organization of Their Activities during Their Temporary Presence in Iraq,” Article 24,

signed November 17, 2008, and entered into force on January 1, 2009.

32
   14 FAM 411.4, “Definitions”; 14 FAM 416.2 “Annual Physical Inventory”; and 14 FAH-1 H-611, “Inventory

Requirements.”


                                                       13

                                              UNCLASSIFIED
                                              UNCLASSIFIED


records. 33 Reconciliation actions include a comparison of inventory counts to balances recorded
on property records; resolution of discrepancies, including management approval for record
adjustments; and inventory adjustment and posting to the property records. 34 The APO must
report to the PMO all inventory shortages on Form DS-132, Property Disposal Authorization
and Survey Report—including the unit cost for each item and an explanation of actions taken to
resolve the discrepancies—and must request PMO authorization to adjust the property records. 35
The PMO, in turn, should conduct an investigation of the shortages and take necessary actions. 36
When the value of an inventory shortage exceeds 1 percent of the total expendable or
nonexpendable inventory value, the PMO 37 must refer the case to post’s property survey board
for action. 38 The post’s annual Property Management Report, which documents these
reconciliation actions, is signed by the APO and PMO and submitted to the Chief of
A/LM/PMP’s Property Management Branch. 39 Although in prior years APOs in Baghdad
certified that they had completed such reconciliations, a February 2013 cable sent by Embassy
Baghdad 40 stated that the APO for Iraq was “attempting to reconcile all missing items on our
database some of which have not been reconciled since 2009.” Failing to reconcile property
records properly meant that errors that should have been identified and corrected remained
undetected and were compounded over multiple years. Had these items been addressed in prior
years, it is likely that the results of OIG’s existence and completeness testing would have been
significantly better.

Potential for Lost, Stolen, or Misused U.S. Government Property

       By not complying with property accountability controls, the Department and U.S.
Mission Iraq cannot be assured of the disposition of the property, and the potential exists for this
property to be lost, stolen, or misused. Items that are not recorded in property records cannot be
tracked, managed, and safeguarded from theft and loss. In addition, inaccurate sensitive
equipment records increase the risk that potentially lethal items could be used against U.S.
Government employees or U.S. interests. OIG found that several of these items did not appear
on Department property records; thus, it would be possible for such items to be compromised
without the Department’s knowledge.



33
   14 FAM 416.1a, “Physical Inventory and Reconciliation,” also requires the physical inventory of residence 

furniture, furnishings, and equipment in use be taken at the time of change of occupancy and the inventory

reconciled with records in the Residential Custodial File.

34
   14 FAH-1 H-611, “Inventory Requirements.”

35
   14 FAH-1, H-615.2-2, “Shortages.”

36
   14 FAH-1, H-616.2-2(A), “Investigations.”

37
   14 FAM 416.5-1(B), “PMO Action.”

38
   14 FAM 416.5-2, “Post’s Property Survey Board,” provides the board with the authority to determine the extent of

and amount of missing, damaged, or destroyed property as a result of negligence, improper use, or willful action on

the employee’s part. Findings and decisions serve to relieve the APO of accountability for property and establish

whether employees are financially liable for missing or damaged property.

39
   14 FAM 418.1-1a, “Property Management Report.”

40
   13 Baghdad 252, “Iraq: FY13 Property Management Annual Inventory Extension Request,” February 11, 2013.


                                                        14

                                              UNCLASSIFIED
                                               UNCLASSIFIED

        Because OIG did not conduct a complete physical inventory of all personal property at
any of the sites visited throughout Iraq, we could not determine whether any of the 142 items we
could not verify for existence were actually lost, stolen, or misused. Additionally, OIG could not
determine the extent to which the data in the Department’s inventory databases were accurate
and complete. Making these determinations would require the Department and U.S. Mission
Iraq to complete a 100-percent inventory of all personal and on-loan property. The results of
such an inventory could then be reconciled with records contained in the various property
databases.

        With regard to property items loaned by the Department of the Army, inaccurate property
records and inadequate monitoring exposes U.S. Mission Iraq to potential financial and security
risks. The nine loaned property items OIG was unable to verify during existence testing, valued
at $78,700, represent a financial risk because, per the terms of agreement between the Mission
and Army, the Mission is obligated to reimburse the Army for damaged, lost, or stolen
items. Furthermore, since this loaned equipment was not available internally to the Mission, its
sensitivity required additional safeguards. Establishing an accountability system to track loaned
property quantities and locations, maintaining an audit trail for all loan transactions, and
completion of a 100-percent physical inventory would ensure that information in inventory
databases is accurate so that this property can be properly tracked and controlled in the future.

Management Actions

        As previously discussed, in April 2010, OIG reported that Embassy Baghdad had
difficulty controlling and accurately accounting for millions of dollars’ worth of property, 41
while in November 2012, the independent auditor noted that a number of deficiencies in
managing real and personal property in Iraq had been reported on financial statements dating
back to 2005. 42 In January 2012, the Department assumed full responsibility from DoD for
leading U.S. operations in Iraq from DoD, including the administrative operations for 16
worksites throughout the country.43 In FY 2013, U.S. Mission Iraq, assisted by the Bureau of Near
Eastern Affairs (NEA), Embassy Baghdad, and A/LM initiated actions to address these
deficiencies and fully account for all property held on U.S. diplomatic facilities in Iraq.




41
   OIG, MERO-A-10-07, Audit of Property Accountability at Embassy Baghdad, April 2010.
42
   OIG, AUD-FM-13-08, Independent Auditor’s Report on the U.S. Department of State 2012 and 2011 Financial
Statements, November 2012.
43
   These included Baghdad Embassy Compound, Baghdad Police Academy Annex, Baghdad Diplomatic Service
Center, Embassy Annex Prosperity, Embassy Heliport, Embassy Military Attaché and Security Assistance Annex,
and Embassy West in Baghdad; Consulate General Basrah; Consulate General Erbil; Erbil Diplomatic Service
Center; and the combined Consulate General and Office of Security Cooperation-Iraq Kirkuk. Also under COM
authority were several sites operated by the Office of Security Cooperation-Iraq in Balad, Besmaya, Taji, Tikrit, and
Umm Qasr. For a complete discussion of U.S. Mission Iraq facilities, see OIG’s report Audit of the U.S. Mission
Iraq Staffing Process (AUD-MERO-13-33).

                                                         15

                                               UNCLASSIFIED
                                              UNCLASSIFIED


        In October 2012, the Mission began its annual inventory to reconcile property records
with the property it had on hand. In a February 2013 cable, 44 Embassy Baghdad requested a
2-month extension to complete and submit its annual inventory report. The Embassy made the
request based on “the shear [sic] amount of items and locations to be inventoried and
reconciled.” In addition, the Embassy stated that it was attempting to reconcile all items missing
from its database, “some of which had not been reconciled since 2009.” The Embassy further
stated the goal was to establish “a clean baseline for Embassy Baghdad’s personal property going
forward.” In May 2013, the Baghdad APO reported a nonexpendable inventory shortage of
$12.4 million (4.3 percent of total inventory) on its annual physical inventory certification. 45
According to the APO, this shortage was due to “the lack of tracking of accountable property
during the departure of U.S. military forces from Iraq at the end of 2011.” The APO also stated
that approximately $10.3 million of this shortage was represented by “items supposedly
transferred from DoD to State” that could not be located by the APO or his predecessor. The
APO recommended, and post’s property survey board approved, the removal of the items from
ILMS to improve inventory accuracy. As noted above, in July 2013 the Department established
that Embassy Baghdad would no longer be solely responsible for all property throughout Iraq,
requiring Consulate General Erbil to conduct independent annual inventories in accordance with
the FAM. According to A/LM/PMP officials, Embassy Baghdad remained responsible for
property at Consulate General Basrah because the consulate had not met A/LM/PMP staffing and
training requirements for property accountability purposes. Mission Iraq’s efforts to establish a
“clean baseline” and ensure property accounts are accurately and fairly stated at both Embassy
Baghdad and Consulate General Basrah, and Consulate General Erbil will be assessed during the
2014 annual physical inventory process. 46

        The 2013 Mission Iraq Chief of Mission Statement of Assurance identified property
accountability as a significant deficiency but also indicated that the extent of the property issue
had been defined by Mission management, and steps were being taken to address the issue of
transfer, loan, and disposal of DoD excess property and property found on installations when the
military left Iraq in 2011. In December 2012, NEA, Embassy Baghdad, and A/LM/PMP
initiated the Iraq Property Accountability Project to identify, assess, inventory, and determine
disposal methods for the excess property located throughout Iraq. In January 2013, the Iraq
Property Accountability Project team identified 2,637 uninventoried containers and 2,441 surplus
vehicles located at Baghdad Diplomatic Service Center and Embassy Annex Prosperity
(Prosperity) in Baghdad, Consulate General Basrah, and the Erbil Diplomatic Support Center.
According to program documents, 1,329 of 2,637 containers belonged to contractors, 768
containers were attributed to the Department and DoD, and 540 containers had unknown
ownership and were considered “found on installation.”


44
   13 BAGHDAD 252, “Iraq: FY13 Property Management Annual Inventory Extension Request,”

February 11, 2013.

45
   Form DS-582, Part A, Certification of Inventory Reconciliation for Foreign Service Posts.

46
   14 FAM 418.1, “Property Management Report” states that posts must submit Form DS-582 to A/LM/PMP by

March 15 of the fiscal year or must submit a request to A/LM/PMP requesting permission to submit the form at a

later date.


                                                       16

                                              UNCLASSIFIED
                                                UNCLASSIFIED

         In December 2013, NEA and Embassy officials stated that, based on interim project
results, they could not provide a firm count or valuation of personal property items found on
installations in Iraq. According to the Iraq Property Accountability Project Management Plan,
finalized in April 2013, as well as NEA, Embassy Baghdad, and A/LM officials, the goals of the
Property Accountability Project are to inventory, account for, and either use or dispose of
property found in these containers and to provide Mission Iraq with a Property Accountability
Sustainment Plan. The officials stated that the Property Accountability Project effort should be
completed by late summer 2014 and would contribute to a new baseline for U.S. Mission Iraq
property.

        While completing these inventories, Embassy officials involved in the project stated the
Mission would also determine whether the assets are in serviceable condition. Embassy
Baghdad officials stated that the Mission retains serviceable items that it can use. For example,
the Supervisory GSO stated that Embassy Baghdad has retained household appliances (washers,
dryers, and refrigerators) and vehicles allowing the Mission to save money by not purchasing
these items new. According to an A/LM official, unneeded serviceable items may be offered and
shipped (at the recipients’ expense) to other U.S. missions, other Federal agencies abroad, or
other eligible U.S. recipients; sold via auction; or abandoned, destroyed, or transferred to the
Government of Iraq. For example, the Supervisory GSO noted that Embassy Baghdad shipped
120 containers of EGlass, a type of ballistic-resistant glass used in the construction of overhead
cover, to Afghanistan.

         According to documentation obtained from A/LM/PMP, between January and
September 2013, the Director of A/LM/PMP 47 approved eight requests from U.S. Mission Iraq
to abandon or transfer foreign excess personal property, including property considered “found on
installation” located in Baghdad, Basrah, and Erbil. According to the FAM, the post’s Property
Management Officer is to determine whether it is in the best interest of the U.S. Government to
return foreign excess personal property to the United States for further Federal use or donation
and must give consideration to whether transportation costs would make return of the property a
cost-effective action. 48 A November 2012 cable, 49 as well as the Department’s Site Closure and
Foreign Excess Personal Property Disposition Guide for Iraq and Afghanistan, state that posts
must submit detailed justification requests to dispose of foreign excess personal property to the
Director of A/LM/PMP for review and approval on a case-by-case basis. The guidance also
states the justifications must be accompanied by a complete inventory listing of the excess
property and a cost analysis or other evidence that the transfer is cost effective.

         OIG reviewed the eight A/LM/PMP approved requests for abandoning or transferring
foreign excess personal property. We found four of the approvals lacked detailed cost analyses
to justify that requested property transfers were cost effective. Specifically, OIG found no
evidence of estimated transportation costs for returning the excess property to the United States.

47
   In 2012, the authority to transfer foreign excess personal property in Iraq and Afghanistan was re-delegated to the 

Director of A.LM/PMP per 40 U.S.C. Chapter 7.

48
   14 FAM 417.2-2.c, “Transfers.”

49
   12 State 118188, November 28, 2012.


                                                          17

                                                UNCLASSIFIED
                                                UNCLASSIFIED


As a result, OIG could not validate that the A/LM/PMP approved requests for transferring 7,336
property items with a fair market value of approximately $1.8 million was in the best interest of
the U.S. Government. 50

        We also noted that one of the A/LM/PMP-approved requests included an improper
donation of three U.S. Agency for International Development-owned armored motor vehicles to
the Government of Iraq. According to U.S. Agency for International Development Automated
Directives System Chapter 563, Armored Vehicle Program, 51 the Office of Security, Physical
Security Programs Division must authorize the disposal of armored vehicles and that the disposals
must comply with 12 FAM and 12 FAH-6. The FAM states that all armored vehicles must be
destroyed at the end of their useful life and may not be sold, donated or transferred to persons,
governments, or organizations outside of the U.S. Government. 52 Based on the review of the
approved requests for abandoning or transferring foreign excess personal property, OIG could
not confirm whether the U.S. Agency for International Development Office of Security, Physical
Security Programs Division approved of the disposal of the armored vehicles. Nor could we
determine why the armored vehicles were approved for donation to the Government of Iraq.
Additionally, OIG could not confirm whether the U.S. Agency for International Development’s
Office of Management Services, Overseas Management Division, approved classifying the
armored vehicles as foreign excess or if the agency’s Washington office approved the disposal of
property as foreign excess in accordance with the FAM. 53

        According to NEA and A/LM/PMP officials, steps are being taken to apply lessons
learned related to accountability of excess Government property in Iraq to Afghanistan, where
the U.S. military is currently planning its exit strategy. Specifically, NEA’s Iraq Property
Accountability Project Management Plan states that an after-action report will be developed to
include a “root cause analysis to understand the cause of the issues in Iraq so that they might help
mitigate potential problems in Afghanistan.” As of December 2013, the after-action report and
lessons learned were still in development; therefore, OIG did not validate or verify these actions.
Additionally, A/LM/PMP officials have indicated they are developing procedures for posts in
Afghanistan to provide robust justifications for accepting DoD-transferred property.
Specifically, the officials stated that posts will be required to document their need for equipment
as well as their ability to utilize and maintain the equipment before acceptance.

Other Matters

         When conducting existence testing, we learned that the U.S. Mission to Iraq had not



50
   One of the four approved packages did not include the fair market value for 19 of the 20 items listed as foreign

excess personal property.

51
   Section 563.3.5, “USAID Mission and Contractor Armored Vehicle Disposition.”

52
   12 FAM 388.b, “Disposals.”

53
   14 FAM 417.1-3, “Approval for Foreign Excess Classification,” and 14 FAM 417.1-8, “Disposal of USAID

Personal Property to Non-U.S. Government Agencies.” 


                                                          18

                                                UNCLASSIFIED
                                              UNCLASSIFIED


received and placed into service 79 of the vehicles selected for our sample. 54 Since the vehicles
had not been placed into service in Iraq, we removed these from the existence-testing analysis.
However, in meetings with Embassy and Department officials, we determined there were several
reasons why the Mission had not received the vehicles. First, 12 of the vehicles were among a
group of 106 vehicles held by Iraqi customs authorities at Umm Qasr. According to Embassy
officials, these 106 armored vehicles, valued at approximately $13.7 million, had been held by
Iraqi customs since the end of 2011 because Iraqi officials alleged the U.S. Government had not
properly filed customs documentation. 55 According to Embassy officials, the Mission has
accrued more than $2 million in cumulative storage costs and demurrage fees for the vehicles
through December 2013. In September 2013, Embassy Baghdad GSO staff stated that the
Government of Iraq had agreed to begin releasing the vehicles. However, the condition of the
vehicles had likely degraded and would require repairs to make them serviceable. In
December 2013, Embassy Baghdad GSO staff stated that the vehicles had been cleared by Iraqi
customs and were expected to be delivered to post by January 1, 2014.

       In addition, 34 of 79 vehicles removed from analysis were among 241 armored vehicles
purchased for the Iraq Police Development Program. 56 These armored vehicles, valued at
approximately $36.7 million, were designated for use by Iraq security forces trainers; however,
the program was terminated in February 2013 before the vehicles were delivered to Iraq.
According to documentation provided by the Bureau of International Narcotics and Law
Enforcement Affairs, which operated this program, ownership of the vehicles transferred to the
Department in July 2013. 57

        Of the remaining 33 vehicles removed from our sample, DS/PSP/DEAV officials stated
that 24 were either in the process of being armored at the Department’s contractor facilities or
were in storage near Washington, DC, awaiting shipment to Iraq; 7 were reassigned to other
bureaus or overseas posts; 1 was en route to Iraq; and 1 had been destroyed.

        Recommendation 1. OIG recommends that U.S. Embassy Baghdad implement revised
        procedures for property accountability to ensure staff consistently and accurately update
        personal property records in the Integrated Logistics Management System on a timely
        basis.

54
   Posts are required to update the “in service” date in ILMS within three working days of receiving the vehicles.
Adding the “in service” date to ILMS will include the vehicle on all subsequent on-hand inventories.
55
   OIG did not meet with Iraqi customs officials or review documentation substantiating the Iraqi statements.
56
   In May 2013, a Bureau of International Narcotics and Law Enforcement Affairs official stated 241 vehicles were
purchased by DS/PSP/DEAV with DoD Iraq Security Forces Funds that transferred to the Department via a Military
Interdepartmental Purchase Request.
57
   According to a Military Interdepartmental Purchase Request, on July 23, 2013, the Department reimbursed DoD
for 239 vehicles. In February 2014, Bureau of International Narcotics and Law Enforcement Affairs officials
indicated that the discrepancy between the 241 vehicles purchased and 239 reimbursed was attributable to
DS/PSP/DEAV record keeping for bulk vehicle purchases. A Bureau of International Narcotics and Law
Enforcement Affairs official indicated that, in 2013, the Bureau requested that DS/PSP/DEAV remove two vehicles
from its inventory, resulting in the reimbursement of 239 vehicles. OIG did not perform additional test work to
validate the discrepancy because the vehicles were removed from our existence-testing analysis.

                                                       19

                                              UNCLASSIFIED
                                UNCLASSIFIED




Management Response: U.S. Embassy Baghdad did not provide a response to the draft
report within the allotted timeframe.

OIG Response: OIG considers this recommendation unresolved and will follow up with
Embassy Baghdad during the compliance process to ensure implementation of the
recommendation. The recommendation can be closed when OIG reviews and accepts
documentation showing that U.S. Embassy Baghdad has implemented revised procedures
for property accountability to ensure staff consistently and accurately update personal
property records in the Integrated Logistics Management System on a timely basis.

Recommendation 2. OIG recommends that U.S. Embassy Baghdad establish a tracking
system to record and monitor the physical location and condition of loaned personal
property in accordance with the Memorandum of Agreement between the U.S. Army and
the Department of State U.S. Mission in Iraq. The tracking system should be
independent of the system used by the U.S. Army to track the property.

Management Response: U.S. Embassy Baghdad did not provide a response to the draft
report within the allotted timeframe.

OIG Response: OIG considers this recommendation unresolved and will follow up with
Embassy Baghdad during the compliance process to ensure implementation of the
recommendation. The recommendation can be closed when OIG reviews and accepts
documentation showing that U.S. Embassy Baghdad has established a tracking system,
that is independent of the U.S. Army’s, to record and monitor the physical location and
condition of loaned personal property in accordance with the Memorandum of
Agreement between the U.S. Army and the Department of State U.S. Mission in Iraq.

Recommendation 3. OIG recommends that the Bureau of Diplomatic Security revise
Secure-Integrated Logistics Management System accountability procedures to record and
report, in real time, changes in physical locations of sensitive special protective
equipment items.

Management Response: DS concurred with the recommendation, stating it was “in the
process of working with the Bureau of Administration’s Office of Program Management
and Policy to make updates and modifications to Secure-Integrated Logistics
Management System and develop procedures to record and report, in real time, changes
in the physical locations of sensitive special protective equipment items.”

OIG Response: OIG considers this recommendation resolved. The recommendation
can be closed when OIG reviews and accepts documentation showing that the Bureau of
Diplomatic Security has revised Secure-Integrated Logistics Management System
accountability procedures to record and report, in real time, changes in physical locations
of sensitive special protective equipment items.

                                        20

                                UNCLASSIFIED
                                UNCLASSIFIED



Recommendation 4. OIG recommends that U.S. Embassy Baghdad investigate and
report to the Bureau of Diplomatic Security the location and status of the three sensitive
special protective equipment items reported as “lost, damaged, or destroyed,” as well as
any corrective actions taken to update the records in the Secure-Integrated Logistics
Management System.

Management Response: U.S. Embassy Baghdad did not provide a response to the draft
report within the allotted timeframe.

OIG Response: OIG considers this recommendation unresolved and will follow up with
Embassy Baghdad during the compliance process to ensure implementation of the
recommendation. The recommendation can be closed when OIG reviews and accepts
documentation from U.S. Embassy Baghdad showing that the location and status of the
three items have been investigated and reported to the Bureau of Diplomatic Security so
that Secure-Integrated Logistics Management System records can be updated, as
appropriate.

Recommendation 5. OIG recommends that the Bureau of Administration, Office of
Logistics Management, develop monitoring guidance to ensure that approved foreign
excess personal property dispositions include all documentation required by volume 14 of
the Foreign Affairs Manual and the Department’s Site Closure and Foreign Excess
Personal Property Disposition Guide for Iraq and Afghanistan. The guidance should
also address procedures for documenting justifications for any deviations from the
requirements.

Management Response: A/LM concurred with the recommendation.

OIG Response: OIG considers the recommendation resolved. The recommendation can
be closed when OIG reviews and accepts documentation showing that the Bureau of
Administration, Office of Logistics Management has developed monitoring guidance to
ensure that approved foreign excess personal property dispositions include all
documentation required by volume 14 of the Foreign Affairs Manual and the Site Closure
and Foreign Excess Personal Property Disposition Guide for Iraq and Afghanistan, and
to address procedures for documenting justifications for any deviations from the
requirements.




                                        21

                                UNCLASSIFIED
                                       UNCLASSIFIED


                                   List of Recommendations

Recommendation 1. OIG recommends that U.S. Embassy Baghdad implement revised
procedures for property accountability to ensure staff consistently and accurately update personal
property records in the Integrated Logistics Management System on a timely basis.

Recommendation 2. OIG recommends that U.S. Embassy Baghdad establish a tracking system
to record and monitor the physical location and condition of loaned personal property in
accordance with the Memorandum of Agreement between the U.S. Army and the Department of
State U.S. Mission in Iraq. The tracking system should be independent of the system used by the
U.S. Army to track the property.

Recommendation 3. OIG recommends that the Bureau of Diplomatic Security revise Secure-
Integrated Logistics Management System accountability procedures to record and report, in real
time, changes in physical locations of sensitive special protective equipment items.

Recommendation 4. OIG recommends that U.S. Embassy Baghdad investigate and report to the
Bureau of Diplomatic Security the location and status of the three sensitive special protective
equipment items reported as “lost, damaged, or destroyed,” as well as any corrective actions
taken to update the records in the Secure-Integrated Logistics Management System.

Recommendation 5. OIG recommends that the Bureau of Administration, Office of Logistics
Management, develop monitoring guidance to ensure that approved foreign excess personal
property dispositions include all documentation required by volume 14 of the Foreign Affairs
Manual and the Department’s Site Closure and Foreign Excess Personal Property Disposition
Guide for Iraq and Afghanistan. The guidance should also address procedures for documenting
justifications for any deviations from the requirements.




                                               22

                                       UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                     Appendix A

                                  Scope and Methodology

        In July 2012, Office of Inspector General (OIG) senior managers conducted consultations
with Embassy Baghdad managers, who reported concerns regarding property accountability for
U.S. Mission Iraq as a result of the military drawdown that took place in late 2011. OIG
conducted this audit to determine the extent to which the Department and U.S. Mission Iraq’s
policies, procedures, controls, and personnel were in place and operating as intended to ensure
property was recorded, monitored, and disposed of properly. OIG initiated this performance
audit under the authority of the Inspector General Act of 1978, as amended. OIG conducted
fieldwork for this performance audit between January and December 2013 in accordance with
generally accepted government auditing standards. Those standards require that OIG plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for its
findings and conclusions based on the audit objectives. OIG believes that the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit objectives.

        To accomplish the audit objectives, OIG reviewed Federal laws and regulations,
including the U.S. Code, Code of Federal Regulations, Federal Financial Management
Improvement Act, statements of Federal Financial Accounting Standards, Defense Federal
Acquisition Regulation Supplement, and the Department’s Foreign Affairs Manual (FAM) and
Foreign Affairs Handbook (FAH) for legal and regulatory requirements and definitions related to
personal property management. OIG also reviewed U.S. Mission Iraq and Bureau of
Administration policies, guidelines, and directives related to personal property management.
OIG reviewed Office of Management and Budget directives and Government Accountability
Office publications on standards for internal controls. OIG also researched and reviewed
Department of Defense policies and guidance related to personal property management as well
as a Memorandum of Agreement between the Department of the Army and the U.S. Mission in
Iraq regarding loaned property. Additionally, OIG reviewed prior OIG reports and Government
Accountability Office reports and testimonies related to personal property management and
accountability. OIG also reviewed work of the Department of Defense OIG and the Office of
Special Inspector General for Iraq Reconstruction.

        OIG conducted fieldwork in Iraq at the Baghdad Embassy Compound, the Baghdad
Diplomatic Support Center, Consulates General Basrah and Erbil, the Erbil Diplomatic Support
Center, and in the Washington, DC, area. OIG interviewed embassy and consulate management
officers, General Services Officers, an Accountable Property Officer, a Property Disposal
Officer, Regional Security Office officials, and General Services Office staff who were
responsible for managing and maintaining nonexpendable personal property inventories.

        OIG also interviewed officials from the Bureau of Administration, Bureau of the
Comptroller and Global Financial Services, Bureau of Diplomatic Security (DS), Bureau of
International Narcotics and Law Enforcement Affairs, and Bureau of Near Eastern Affairs. In
addition, OIG met with the Department’s independent auditor to discuss the results of its audit of

                                               23

                                       UNCLASSIFIED
                                       UNCLASSIFIED


the Department’s financial statements for FY 2012 as it related to personal property. Within
Iraq, OIG performed tests for existence of personal property items and completeness of the
inventory. The steps taken to select the sample of individual items of property are described
below.

Detailed Sampling Methodology

        OIG’s sampling objective was to determine whether the Department’s personal property
in Iraq was properly recorded and accounted for. OIG tested inventory lists generated by the
Department to verify the existence of the items and the completeness of the lists. These tests are
commonly referred to as “list-to-floor” and “floor-to-list,” respectively.

       Iraq-specific property records are not maintained in a centralized database. OIG obtained
and used the following inventory lists from which to sample the target population:
       •	 Integrated Logistics Management System (ILMS) listing of personal property
          throughout Iraq. This list was provided by the Bureau of Administration and included
          91,248 items as of March 22, 2013.
       •	 Contractor-acquired property (CAP) for Iraq. This list, based on contractor reports,
          was provided by the Bureau of Administration and included 160 items as of
          February 26, 2013.
       •	 Government-furnished equipment (GFE) for Iraq. This list, based on contractor
          reports, was provided by the Bureau of Administration and included 742 items as of
          February 26, 2013.
       •	 Iraq capitalized assets from the Computerized Maintenance Management System
          (CMMS). DS provided three separate ILMS-generated listings of capitalized
          security-equipment items: one for Baghdad-specific items on April 5, 2013, and one
          each for Basrah and Erbil on May 15, 2013. The April listing contained 566 items in
          Baghdad. The Basrah list contained 98 items, and the Erbil list contained 64 items.
          Security equipment items valued at $25,000 or more are recorded in both CMMS and
          ILMS due to their value.
       •	 Secure-Integrated Logistics Management System (S-ILMS) for Iraq listing. This list
          was provided by the Bureau of Diplomatic Security on April 5, 2013, and contained
          12,049 sensitive special protective items and 4 sensitive non-special protective items.
       •	 Property Book Unit Supply Enhanced (PBUSE) listing of Army-loaned property in
          Iraq. This list was provided by General Service Office at Embassy Baghdad. The list
          was generated by the Department of Defense and contained 307 items as of
          April 1, 2013.




                                                24

                                       UNCLASSIFIED
                                                UNCLASSIFIED


         Because of problems such as inaccurate and incomplete inventory data, OIG was not able
to strictly adhere to the originally planned statistical sampling design 58—namely, stratified
random sampling. 59 The difficulties OIG encountered primarily involved anomalies with the
sampling frames (for example, the lists of the sampling units contained in the population), which
sometimes necessitated follow-up visits to certain locations when a list was found to be deficient
for incompleteness. The Department provided several lists for the various subpopulations of the
inventory at various stages during the audit rather than providing OIG with a complete and
comprehensive list at the outset of the audit, thereby hampering OIG’s efforts to efficiently and
expeditiously conduct sampling and testing.

         Identification of the Universe

        On January 12, 2013, OIG initially requested the Bureau of Administration provide a list
that included the entire universe (or population) of all U.S. Mission Iraq personal property, GFE,
and CAP held in Iraq as of December 31, 2012. On February 25, 2013, OIG was provided with
inventory lists that did not contain sufficient descriptive and identifying data. Specifically, the
ILMS inventory data lacked unique asset identifiers or acquisition costs. However, CAP and
GFE inventory listings appeared adequate and were used to generate our sample. OIG requested
updated inventory lists on February 28, 2013, and on March 5, 2013, the Department provided
OIG with ILMS inventory data that again excluded unique asset identifiers, such as vehicle
identification numbers. Again, OIG requested the Department provide inventory data with
unique asset identification numbers for all assets. On March 22, 2013, OIG received ILMS
property data lists that appeared adequate to allow OIG to select a sample of aircraft and related
assets, motor vehicles, other personal property, and security equipment items for testing.

        After commencing fieldwork, however, OIG discovered that the inventory lists were still
incomplete, as they were not inclusive of all the types of property items in Iraq. Specifically, on
July 10, 2013, after fieldwork was substantially completed, the Bureau of International Narcotics
and Law Enforcement Affairs provided OIG with a contractor-property report that included CAP
and GFE for aircraft and related assets in use in Iraq under contract S-AQMPD-05-C-1103. This
property data was not included in the CAP and GFE listing provided by Bureau of
Administration, Office of Logistics Management, Office of Program Management and Policy
(A/LM/PMP) in February 2013. Due to the late receipt, OIG did not perform existence testing
on contractor property data for aircraft and related assets, but used the data for completeness
testing. In addition, the ILMS inventory list provided by the Bureau of Administration on
March 22, 2013, did not include security equipment. DS provided OIG with a security-
equipment inventory list on April 5, 2013, from which a sample was chosen. However, during
the course of inventory test work, OIG found the security equipment sample excluded property

58
   A statistical sample requires that each unit in the population has a known nonzero probability of selection, and a
random method is used to choose the specific units to be included in the sample.
59
   A stratified random sample is a statistical sample obtained by separating the population elements into non-
overlapping groups, called strata, and then selecting a simple random sample from each stratum. A simple random
sample is a statistical sample in which each member of the population has an equal chance of being drawn to the
sample.

                                                         25

                                                UNCLASSIFIED
                                         UNCLASSIFIED


located outside of Baghdad. On May 14, 2013, DS provided OIG with security-equipment
inventory lists for Basrah and Erbil. Receiving the inventory lists for the three locations in a
staggered manner, rather than concurrently, impeded OIG’s efforts to efficiently and
expeditiously conduct sampling and testing.

        For Army-loaned property, OIG requested the property list from the U.S. Mission Iraq
General Services Office because records for these items were not maintained in any of the
centralized Department inventory records. The U.S. Mission Iraq General Services Office
obtained the list from the U.S. Army, which maintains the records in its property system known
as PBUSE. There were no independent records maintained by the U.S. Mission Iraq General
Services Office with which to assess the quality of this list before the testing phase of this audit.
Consequently, we evaluated the quality of the list during existence testing, the results of which
are detailed in the Audit Results section of this report.

        Overall, OIG found the requested inventory lists contained deficiencies, including
missing, inaccurate, and incomplete descriptive data, identifying information, location
information, and valuation information. The deficiencies were exacerbated by the incomplete
representation of the population in the sampling frames, as evidenced by the large number of
items not included on the lists provided to OIG. This problem is further explained in the Audit
Results section of this report. Because of the list deficiencies and the lack of timeliness in list
availability, OIG was hampered in its efforts to efficiently and expeditiously sample and test the
inventory. More specifically, OIG could not entirely implement its primary, planned statistical
sampling method, stratified random sampling, which precluded efforts to project testing results
to the universe.

       Existence Testing

       To determine whether U.S. Mission Iraq could account for property, OIG randomly
sampled items from inventory lists and physically verified their existence. This procedure is
commonly referred to as “list-to-floor” testing. The results of this testing are detailed in the
Audit Results section of this report.

        Using the six inventory lists cited above, OIG grouped the total universe of 105,238
personal property items into 10 categories of property based on the type of property list, as
shown in Table 1. The ILMS inventory list of 91,248 items was separated into 4 of 10
categories, primarily to ensure that various items were sufficiently represented in OIG’s sample.
These categories were aircraft and related items, motor vehicles, information technology
equipment, and other personal property, which grouped all items that were not included in the
other three categories. The remaining five inventory lists OIG received were not grouped, as
they already represented distinct categories of property.




                                                  26

                                         UNCLASSIFIED
                                              UNCLASSIFIED


         Table 1. Universe and Sample Sizes, per Property Category

         Property Type                             List Provided                Population      Sample
         Contractor-acquired Property              CAP inventory list                  160          97
         Government-furnished Equipment            GFE inventory list                  742         206
         Aircraft and Related Items                ILMS inventory list                  49          49
         Motor Vehicles                            ILMS inventory list               1,863         239
         Information Technology Equipment          ILMS inventory list             11,562          273
         Other Personal Property                   ILMS inventory list             77,774          383
                                                   Capitalized assets from
         Security Equipment                        CMMS inventory list                   728         350
         Sensitive Special Protective              S-ILMS inventory list
         Equipment                                                                   12,049          275
         Sensitive Non-Special Protective          S-ILMS inventory list
         Equipment                                                                          4           4
                                                   GSO-provided
         Army Loaned Property                      Document from PBUSE                  307          147
         Total                                                                      105,238        2,023

         Source: Generated by OIG from data provided by the Department.

         In addition to the primary categories by type of assets listed above, these data were
sometimes grouped by asset value or location. This inconsistent sampling approach stemmed
from the limitations imposed on OIG. Specifically, the ILMS and Government-furnished
equipment lists did not contain asset values for every item, and the S-ILMS list did not contain
any asset values. Consequently, OIG could not always hone in on higher-value inventory items.
Moreover, OIG sometimes had to continue sampling a type of asset after sample size
determination had been made for that type of item because a belated list was presented indicating
more items of this type at another location in Iraq. For example, the 728 items in the
subpopulation of Security Equipment were allocated, according to the lists, to three locations in
Iraq as follows: 566 for Baghdad, 64 for Erbil, and 98 for Basrah, and the sample sizes selected
were 188, 64, and 98, respectively, for a total of 350. 60 Furthermore, even when the inventory
lists specified the location as Baghdad, Erbil, or Basrah, no distinction was made, for example,
between the Baghdad Embassy Compound and the Baghdad Diplomatic Support Center, or
between Consulate General Erbil and the Erbil Diplomatic Support Center, further hindering
OIG’s attempts to efficiently and effectively sample.




60
  After OIG selected the sample of 350 items from the universe of 728 capitalized security items reported in the
ILMS listings, DS provided OIG with a CMMS inventory list that included all security items in Iraq regardless of
value. OIG took the additional step of comparing the results of the sample selection of security equipment from
ILMS with the CMMS list. This comparison did not disclose a significant difference.

                                                        27

                                              UNCLASSIFIED
                                              UNCLASSIFIED


        Completeness Testing

         To test the completeness of the property records, we sampled items in use or stored at the
sites visited, recording the item description, serial number, or other identifying information and
then attempted to locate the property in the property lists to test for the completeness of the
property records. This procedure is commonly referred to “floor-to-list” testing. The results of
this testing are detailed in the Audit Results section of this report.

        The nature of completeness testing makes it extremely difficult, if not impossible, to
develop a comprehensive sampling frame or list that includes the entire universe of items on the
“floor,” thereby precluding the use of statistical sampling. Consequently, OIG selected a
judgment sample 61 of items based on factors such as accessibility and perceived value to confirm
whether the items were appropriately and accurately recorded on the property lists. Because the
number of locations visited and the amount of time available at these locations varied, the sample
sizes also varied considerably, as shown in Table 2.

                          Table 2. Samples Sizes, per Property
                          Location
                          Property Location                                    Sample
                          Baghdad Embassy Compound                                  574
                          Baghdad Diplomatic Support Center                         125
                          Erbil Diplomatic Support Center                            64
                          Consulate General Erbil                                    79
                          Consulate General Basrah                                  127
                          Total                                                     969

                         Source: Generated from OIG testing.



Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to the
management of personal property. OIG tested the property lists provided for existence and for
completeness. Compliance with applicable policies, procedures, and processes was also
reviewed to assess whether the system of internal controls over the inventory of personal
property was effective, that is, whether it provided reasonable assurance as to the reliability of
inventory information and accountability of the personal property. OIG identified numerous
deficiencies and internal control weaknesses in physical inventory of and accounting for property
items and in the completeness, accuracy, and reliability of the personal property data, which are
detailed in the Audit Results section of this report.


61
  A judgment sample is a nonstatistical sampling method in which the sample is selected by using discretionary
criteria rather than the laws of probability; a judgment sample cannot be projected to the universe.

                                                       28

                                              UNCLASSIFIED
                                       UNCLASSIFIED



Use of Computer-processed Data

         OIG utilized computer-generated data from the Department in testing for existence and
completeness of the inventory. OIG identified numerous deficiencies and internal control
weaknesses while physically testing inventory items. Additionally, OIG made use of work
performed by the external auditors who periodically test general and system specific accounting
controls as part of the Department’s annual financial statement audit. The Audit Results section
of this report presents, in detail, the data deficiencies identified during this audit.




                                               29

                                       UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                                       Appendix B

Bureau of Administration, Office of Logistics Management Response

                                                          United States Department of State

                                                          Wa.1hiugtcm. D.C. 20520



    UNCLASSIFIED                                                                May 8, 2014

    MEMORANDUM

    To:           OIG/AUD- Norman P. Brow , Acting'"'
    From:         AILM - Catherine Ebert-Gr        ~~
    Subject:                                      al    Propc~y Accountability at U. S. Mission Iraq

            We want to thank the OIG for the opportunity to review and comment on the subject draft
    report. We concur with Recommendation 5.

           As we indicated during our exit interview, we support and applaud OIG efforts to ensure
    the Department's property is recorded, monitored and disposed of properly. This important
    oversight function can only lead to the strengthening of the Department's policies, procedures,
    and controls related to personal property.

            We agree that that the Bureau of Administration, Office of Logistics Management should
    develop monitoring guidance to ensure that approved foreign excess personal property
    dispositions include all required documentation, as stipulated by Foreign Affairs Manual Volume
    14 and the Foreign Excess Personal Property Disposition Guide for Iraq and Afghanistan. We
    also agree that the Bureau of Administration, Office of Logistics Management should address
    procedures for documenting justifications for any deviations from the requirements.




                                                  30

                                        UNCLASSIFIED
                                UNCLASSIFIED



                                                                                  Appendix C

               Bureau of Diplomatic Security Response


                                                    United States Department of State

                                                    Washington, D .C. 20520

                                                    www.sfate .gov




UNCLASSIFIED                                        May 9, 2014

INFORMATION MEMO TO INSPECTOR GENERAL LINICK - OIG

FROM:       DS- Gregory B. Starr ~~$-\                ~AY            09 2014

SUBJECT: Draft Report Response -Audit of Personal Property Accountability at
         U.S. Mission Iraq - Report Number AUD-MER0-14-18, dated April
         2014

     Attached is the Bureau of Diplomatic Security's initial response to
Recommendation 3 of the subject draft report.

Attachment:
      As stated.




                                UNCLASSIFIED




                                          31

                                UNCLASSIFIED
                               UNCLASSIFIED




UNCLASSIFIED


Audit of Personal Property Accountability at U.S. Mission Iraq, Report
               Number AUD-MER0-14-18, April2014

Recommendation 3 (04/23/2014): OIG recommends that the Bureau of
Diplomatic Security revise Secure-Integrated Logistics Management System
accountability procedures to record and report, in real time, changes in
physical locations of sensitive special protective equipment items.

DS Response (04/29/2014): DS concurs with this recommendation. DS is
in the process of working with The Bureau of Administration's Office of
Program Management and Policy to make updates and modifications to the
Secure-Integrated Logistics Management System and develop procedures to
record and report, in real time, changes in the physical locations of sensitive
special protective equipment items ..




                               UNCLASSIFIED



                                        32 


                               UNCLASSIFIED

                                       UNCLASSIFIED



                                                                                            Appendix D

Bureau of International Narcotics and Law Enforcement Affairs Response

        tt--~ .A                                          United States Dep a rtment of State




     -             .
              '

                                                          Washington, D.C. 20520
         'W

                                                               MAY -5
     UN CLASS lFI ED

     MEMO FOR O l G/l SP ASSIST ANT DIRECTOR R OBE RT PETERSO N

     FROM:             INLIRM- James A. Wals h   ~
     SUBJECT: TNL Responses to OIG Draft Report on the Audit of Personal Property
              Accountability at U.S. Mi ssion Iraq (AUD-MER0- 14-18, April 20 14)

     The Bureau o flnternational Narcotics and Law Enforcement Affairs (I L)
     appreciates the opportunity to comment on sections of the draft O IG audit report
     referencing I L programs, in order to provide additional context to the report:

     R elevant Repor t Section (pages 19- 20): " In addition, 34 of79 vehicles re moved
     from analysis were among 241 armored vehicles purchased for the Iraq Police
     Development Program. These armored vehi cles, valued at approximately $36.7
     million, were des ignated for use by Iraq security forces trainers; however, the
     program was te rminated in February 2013 before the vehicles were delivered to
     Iraq. According to documentation provided by IN L, which operated this program,
     ownership of the vehicles transferred to the De partment in July 201 3."

     "(Footnote 56) According to a Military Interdepartmental Purchase Request, on
     July 23, 2013, the Department reimbursed DoD for 239 vehicles. In February
     2014, INL official s indicated the di screpancy between the 24 1 vehicles purchased
     and 239 reimbursed we re attributable to DS/ PS P/ DEA V record keeping for bulk
     vehicle purchases. An INL official indicated they requested DS/ PSP/ D EA V to
     remove two vehicles from the inventory attributed to INL, resulting in the
     reimburseme nt of 239 vehicles. OIG did not perform additional testwork to
     validate the discrepancy because the vehicles were removed from our existence
     testing analysis."

     JNL R esponse (April 2014): The 241 vehicles referenced in the report were part
     of a tota l of 350 vehicles purchased w ith DoD Iraq Security Forces Funds
     transferred to INL via a series of Milita ry Interdepartmental Purchase Requests for
     the purpose of contracting civilian police services and associated support
     requirements. Per National Security Poli cy Directive 36, the respons ibility fo r
                                       UNCLASS IFIED




                                                 33

                                       UNCLASSIFIED
                                UNCLASSIFIED




                                  UNCLASSIFIED
                                          - 2-
police assistance in Iraq wou ld eventually revert from DoD to the Department of
State; these vehicles were procured through the Bureau of Diplomatic Security
(DS) so they could continue to be used once that transition occutTed. DS retained
fu ll custody of the armored vehicles at all times, and was responsible for the
inventory and control of the vehicles. Since the vehicles were purchased with a
DoD appropriation, when the State Department ended the Iraq Police Development
Program early, the State Department negotiated the disposition of the veh icles for
storage with DoD. DS expressed an interest in retaining the vehicles and
purchased the vehicles from DoD in July 2013. DS informed INL that two ofthe
24 1 vehicles were transferred elsewhere in March 2013 . Also in March 2013, I L
requested DS to correct the inventoty attributed to INL programming because it
was incorrect.

Attachments:
      Tab I - Audit Letter
      Tab 2- Draft OIG Audit Report




                               CLASSIFICATION




                                         34 


                                UNCLASSIFIED

                                   UNCLASSIFIED



Major Contributors to This Report

David G. Bernet, Director
Middle East Region Operations
Office of Audits

Holly Engebretsen, Audit Manager
Middle East Region Operations
Office of Audits

Kenneth A. Leonard, Auditor
Middle East Region Operations
Office of Audits

Aquiles Hernandez, Auditor
Middle East Region Operations
Office of Audits

Peter Schmidt, Auditor
Middle East Region Operations
Office of Audits

Lloyd Taylor, Auditor
BCP International, LTD

Sarah Ustick, Management Analyst
Middle East Region Operations
Office of Audits




                                        35

                                   UNCLASSIFIED
       UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:



         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





       UNCLASSIFIED

